INSPECTOR GENERAL




I hereby submit this Semiannual Report: April 1 - September 30,2005, which
summarizes the major activities and accomplishments of the Office of Inspector General
(OIG) of the National Labor Relations Board (NLRB or Agency). The submission of this
report is in accordance with the Inspector General Act of 1978, as amended (IG Act).
Section 5 of the IG Act requires that the Chairman tramnit this report to the appropriate
committees or subcommittees of the Congress within 30 days of its receipt.

In the audit program, OIG issued three audit reports, three inspection reports, and one
issue alert. In the investigations program, OIG processed 83 contacts, initiated 9 cases,
and closed 9 cases. The investigations resulted in 6 administrative actions and $283 in
investigative recoveries. We reviewed five pieces of legislation and made one policy
comment. Details on these accomplishments can be found in the body of this report.

During this reporting period, the OIG devoted its audit resources to reviewing the
administration of the Agency. It is noteworthy that while doing so we reached agreement
with the Agency on our recommendations without devoting a significant amount of time
resolving comments or disagreements. This is a significant accomplishment for both the
Agency and the OIG. Our work covered a wide spectrum of areas including personnel,
finance, information technology, and Agency records. Our investigative resources were
focused in large part on employee misuse of the Agency's Internet access, but also
included areas involving conflict of interests, false claims and statements, and travel.

In October, along with 17 other Agency employees, I volunteered to assist the Federal
Emergency Management Agency with Katrina disaster relief. While assigned to a Disaster
Recovery Center in Tylertown, Mississippi, I was impressed with the honesty and stoicism
of the many people affected by this disaster.

I appreciate the support of all Agency employees in achieving the accomplishments set
forth in this report.
                                                           AGENCY PROFILE

The National Labor Relations Board              represented by a union in dealing with
(NLRB or Agency) is an independent              their employers and, if so, by which
Federal agency established in 1935 to           union; and (2) to prevent and remedy
administer the National Labor Relations         unlawful acts, called unfair labor
Act (NLRA). The NLRA is the                     practices, by either employers or unions.
principal labor relations law of the
United States, and its provisions               NLRB authority is divided by law and
generally apply to private sector               delegation. The five-member Board
enterprises engaged in, or to activities        primarily acts as a quasi-judicial body in
affecting, interstate commerce. NLRB            deciding cases on formal records. The
jurisdiction includes the U.S. Postal           General Counsel investigates and
Service (other government entities,             prosecutes unfair labor practices before
railroads, and airlines are not within          administrative law judges, whose
NLRB’s jurisdiction).                           decisions may be appealed to the Board;
                                                and, on behalf of the Board, conducts
The NLRB seeks to serve the public              secret ballot elections to determine
interest by reducing interruptions in           whether employees wish to be
commerce caused by industrial strife. It        represented by a union.
does this by providing orderly processes
for protecting and implementing the             The Board consists of the Chairman and
respective rights of employees,                 four Members who are appointed by the
employers, and unions in their relations        President with the advice and consent of
with one another. The NLRB has two              the Senate. Board Members serve
principal functions: (1) to determine and       staggered terms of 5 years each. The
implement, through secret ballot                General Counsel is also appointed by the
elections, the free democratic choice by        President with the advice and consent of
employees as to whether they wish to be         the Senate and serves a 4-year term.




NLRB OIG Semiannual Report                  1              April 1 – September 30, 2005
                                                                       AGENCY PROFILE

Two vacant seats remain on the                 less an across-the-board rescission of .80
five-Member Board. Robert J. Battista          percent, leaving a net spending ceiling of
continues to serve as Chairman along           $249,860,000 to fund an expected
with two other Board Members,                  ceiling of 1,865 full-time equivalents.
Wilma B. Liebman and Peter C.                  NLRB Headquarters is at 1099 14th
Schaumber. Board Member Schaumber              Street, NW, Washington, DC.
received a recess appointment on
August 31, 2005, after his original term       In addition to the Headquarters building,
expired on August 27, 2005.                    employees are located in 51 field offices
                                               throughout the country. Three satellite
On June 30, 2005, Arthur F. Rosenfeld          offices for the Administrative Law
was designated as the Acting General           Judges are located in Atlanta, San
Counsel, his original term as General          Francisco, and New York. Since
Counsel expired on June 3, 2005. Also,         October 2, 2000, field offices included
on June 30, 2005, former Board Member          32 Regional Offices, 16 Resident
Ronald E. Meisburg was nominated for a         Offices, and 3 Subregional Offices.
4-year term as General Counsel.
                                               Additional information about the NLRB
The NLRB received an appropriation of          can be found on the Web site
$251,875,000 for Fiscal Year (FY) 2005,        www.NLRB.gov.




NLRB OIG Semiannual Report                 2              April 1 – September 30, 2005
                                  OFFICE OF INSPECTOR GENERAL

NLRB established the Office of Inspector General (OIG) pursuant to the 1988
amendments to the Inspector General Act of 1978 (IG Act).


Resources
The FY 2005 OIG budget was                    Inspector General for Investigations,
$1,103,000 for operations, of which           Assistant Inspector General for Audits,
$169,000 was for contract services. In        an investigator, three auditors, and a
addition to the Inspector General, the        staff assistant.
OIG consists of a Counsel/Assistant




NLRB OIG Semiannual Report                3                April 1 – September 30, 2005
                                                               AUDIT PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate audits relating to program operations of the Agency. OIG issued three audit
reports, three inspection reports, and one issue alert.

Reports Issued                                   Three offices were not recording some
•   We issued Audit Report                       or all compensatory time in the Agency
OIG-AMR-47-05-04, Non-Standard                   official payroll records.
Work Hours Compensation, on August
9, 2005. We conducted this review to             Each office reviewed had employees that
assess whether management controls               used annual leave before liquidating
provided adequate assurances that                compensatory leave, although Agency
overtime, compensatory time, and credit          policy is that, normally, compensatory
hours were properly authorized and               leave should be used first. Two
approved and whether records were                employees in our sample that retired in
complete and accurate.                           2004 were paid a combined total of
                                                 $2,900 for compensatory leave that
We generally found that controls over            could have been avoided by enforcing
the earning and using non-standard work          the policy.
hours were not sufficient and related
records in the Agency’s payroll system           Additionally, three employees that
were not complete and accurate.                  retired at the end of 2004 were allowed
                                                 to carry credit hours for an extended
Authorizations to work compensatory              period, resulting in $3,000 in payments
time were generally not documented,              to the employees that could have been
and only one office reviewed designed            avoided.
forms to approve and document non-
standard work hours that captured all            Management agreed with our

pertinent data.                                  recommendations.




NLRB OIG Semiannual Report                   4                 April 1 – September 30, 2005
                                                                           AUDIT PROGRAM

•   We issued Audit Report                       Development, and Procurement and
OIG-AMR-48-05-05, Safeguarding                   Facilities Branch, did not find any
Social Security Numbers, on August 31,           instances of unsafeguarded SSNs. We
2005. We conducted this audit to assess          did observe, however, a few instances at
the adequacy of the Agency's controls            Headquarters in which documents
over the access to, disclosure of, and use       containing personal information,
of Social Security Numbers (SSNs) by             including SSNs, were left in an
external entities. This audit included           unsecured manner while the employees
SSNs of Agency employees, vendors,               in custody were away from their work
and those collected by program offices           area.
for case processing purposes.
                                                 We determined that improvements were
The Agency uses SSNs as required by              needed to comply with the Privacy Act
Federal laws and regulations to identify         of 1974 and that the Agency used forms
employees and vendors. Additionally,             to collect SSNs that did not have the
Regional Offices collect SSNs to help            Privacy Act disclosure.
locate parties in unfair labor practice
cases and to use in cases in which               One Regional Office did not maintain
backpay is a potential remedy.                   some personnel records in accordance
                                                 with Federal regulations or an Agency
Generally, the Agency had adequate               Privacy Act System of Records notice.
controls over SSNs when processing               The Agency had not published a system
records requested under the Freedom of           of records notice related to Regional
Information Act (FOIA). Three of the             Office case files.
four Regional Offices visited adequately
secured employee related documents.              Management agreed with our
Also, workday physical inspections of            recommendations.
the Regional Offices visited, Security
Branch, Office of Employee

NLRB OIG Semiannual Report                   5               April 1 – September 30, 2005
                                                                        AUDIT PROGRAM

•   We issued Audit Report                      related to electronic and information
OIG-AMR-49-05-06, NLRB                          technology in FY 2004. Eight of these
Technology Initiatives as Related to the        requests were filled. One request was
Rehabilitation Act, on September 26,            not processed because the employee
2005. We initiated this audit to evaluate       failed to provide the necessary
the Agency’s compliance with sections           supporting medical documentation.
501 and 508 of the Rehabilitation Act.

                                                The Agency's Internet and Intranet pages
NLRB provides reasonable
                                                were generally in compliance with
accommodations consisting of assistive
                                                section 508 requirements. Some pages
technology devices and services through
                                                included data tables that did not identify
the Department of Defense
                                                row and column headers appropriately,
Computer/Electronic Accommodations
                                                and some pages were not readable by
Program (CAP) at no cost to the
                                                assistive technology. The most common
Agency. During FY 2004, eight
                                                deficiency was that many Internet pages
employees were provided reasonable
                                                did not meet the requirement to provide
accommodations that included six pieces
                                                users a method to skip repetitive
of assistive technology. In addition,
                                                navigation links.
CAP provided training to use a screen
reader and the evaluation of a work
                                                The Chief Information Officer had no
station. These items would have cost
                                                comment on the findings and completed
approximately $4,350 had they been
                                                corrective actions for the two
purchased by the Agency.
                                                recommendations made in the draft
                                                report. Therefore, we had no
No electronic and information
                                                recommendations in the final report.
technology reasonable accommodation
requests were denied. The Human
Resources Branch received nine
reasonable accommodation requests

NLRB OIG Semiannual Report                  6              April 1 – September 30, 2005
                                                                        AUDIT PROGRAM

•   We issued Inspection Report                of 10 percent, a rate that we consider
OIG-INS-36-05-02, FOIA Processing,             significant. Two offices did not
on June 10, 2005. We initiated this            compute working days in accordance
inspection to determine whether the            with FOIA guidelines. These
NLRB filled requests for information           inconsistencies made the Agency appear
made under FOIA in a timely manner.            to respond to requests in a less timely
                                               manner than it actually did.
The Agency responded to FOIA requests
in a timely manner. In FY 2004, the            •   We issued Inspection Report
Agency processed 5,295 requests in a           OIG-INS-38-05-03, Agency Retirement
median of 9.5 days, substantially under        Records, on September 15, 2005. We
the 20-day period allowed by                   initiated this inspection to assess
regulations. A majority of FOIA                whether the Agency is maintaining the
requests were granted in full in most of       appropriate records for retirement
the offices reviewed. Generally, the           deductions.
number of FOIA requests received by
the Agency decreased over the past 6           The Agency does not maintain the
years from a high of 6,268 requests in         records for employee retirement
FY 1998 to a low of 5,193 requests in          deductions. The Department of the
FY 2004.                                       Interior's National Business Center
                                               (NBC), which provides payroll services
In instances when the Agency did not           to the Agency, maintains the records for
respond to a FOIA request within 20            retirement deductions made since
days, some offices reviewed did not            September 2002. The Agency's previous
usually provide the required written           retirement records have been sent to the
notice to the requester. FOIA logs or          Office of Personnel Management
databases for some offices had data            (OPM). NBC also certifies the
elements with exception rates in excess        retirement records and submits them to



NLRB OIG Semiannual Report                 7                 April 1 – September 30, 2005
                                                                       AUDIT PROGRAM

OPM when an employee separates from            We identified delays by other agencies
the Agency.                                    in charging NLRB for amounts due and
                                               NLRB delays in charging other
•   We issued Inspection Report                agencies. These delays could result in
OIG-INS-37-05-04, Interagency                  not having information on funds
Balances, on September 27, 2005. We            available in time to use them before they
initiated this inspection to review the        expire.
process for recording and reconciling
interagency account balances.                  NLRB continued to bill for some FY
                                               2005 services at 1998 rates, instead of
NLRB is required to reconcile certain          actual cost. One agency was billed less
balances with OPM and Department of            than the amount in the interagency
Labor (DOL). The Finance Branch                agreement, a difference of $712.
(Finance) reconciled the required OPM
amounts. Finance confirmed Federal             •   We released Issue Alert
Employee's Compensation Act liability          OIG-IA-05-03, Processing Time Off
and expense amounts for DOL as                 Awards, on July 1, 2005. During an
correct, but did not reconcile the             investigation, it came to our attention
amounts to the NLRB records.                   that a Region was documenting time off
                                               awards by e-mail messages rather than
The Agency is not required to and did          processing personnel actions and
not reconcile balances with other              properly recording the award and its use
agencies. Finance relies upon individual       in the Agency's time and attendance
NLRB offices to reconcile charges for          system. We reminded the Agency that
services received under agreements with        such awards must be supported by a
other agencies. Amounts charged were           written justification and processed
not verified by NLRB offices.                  through a personnel action. We noted
                                               that this type of informal recording of
                                               time and attendance information does

NLRB OIG Semiannual Report                 8               April 1 – September 30, 2005
                                                                     AUDIT PROGRAM

not meet OPM's accurate and timely           management on actions needed to
standard.                                    implement the recommendation on
                                             December 1, 2003. The agreed upon
Audit Follow-up                              actions included having the Agency
Agreed upon actions were not completed       conduct a study to determine whether
within 1 year on three audit reports.        the Agency will produce an annual
                                             report and, if so, in what form. Senior
•   Information Security Review of           Agency officials are evaluating a report
New Automated Systems, OIG-AMR-              prototype. A final determination has not
40-03-03, was issued on September 22,        been made.
2003, and we reached agreement with
management on actions needed to              •   Audit of Archiving Case Files,
implement the eleven recommendations         OIG-AMR-43-04-03, was issued on
on that date. Action was completed on        September 20, 2004, and we reached
10 of the 11 recommendation.                 agreement with management on actions
Management is working to implement           needed to implement the 10
the remaining recommendation.                recommendations on that date. Actions
                                             were completed on 5 of the 10
•   Review of Data Accuracy in the           recommendations. Management is
FY 2001 Annual Report, OIG-AMR-39-           working to implement the remaining
03-04, was issued on September 30,           recommendations.
2003. We reached agreement with




NLRB OIG Semiannual Report               9                April 1 – September 30, 2005
                                             INVESTIGATIONS PROGRAM

The Inspector General is to provide policy direction for and is to conduct, supervise, and
coordinate investigations relating to the programs and operations of the Agency. OIG
processed 83 contacts, initiated 9 cases, and closed 9 cases. The investigations resulted
in 2 resignations, 1 suspension, 3 counselings, $283 in investigative recoveries, and a
resignation of a contractor's employee. The Department of Justice declined prosecution
of two matters.


                        Case Workload                  Contacts Processed

                  Open (4/1/2005)        9        Received                  83

                  Initiated              9        Initiated Investigation   2

                  Closed                 9        Opened Case --             0
                                                  Referred to Agency
                  Open (9/30/2005)       9        Non-Investigative         81
                                                  Disposition


•   Sexually Explicit Internet                     Agency entered into an agreement for
Material. OIG initiated this case                  his resignation. (OIG-I-372)
following a referral of an allegation from
Agency management that the subject                 In another matter, OIG initiated a case
was using his Government computer to               after a proactive review of the Agency's
view sexually explicit material on the             Internet firewall logs identified the
Internet. Using forensic software, we              subject's activity involving viewing
substantiated the allegation. We also              sexually explicit material on the Internet.
found evidence that the subject received           Again, using forensic software, we
prior warnings regarding this type of              substantiated the allegation. When
misconduct. When interviewed, the                  interviewed, the subject admitted that he
subject admitted that he engaged in this           engaged in this misconduct for several
misconduct for several years preceding             months preceding our investigation.
our investigation. After we issued our             Following the issuance of our
investigative report, the subject and the



NLRB OIG Semiannual Report                   10                   April 1 – September 30, 2005
                                                                INVESTIGATIONS PROGRAM

investigative report, the subject received        employee. Our investigation
a written reprimand. (OIG-I-375)                  substantiated that the subject used the
                                                  Agency's access to Choice Point, a
•   Outside Business Activity.                    database service that provides personal
OIG initiated this case after a proactive         information about individuals, to obtain
review of the Agency's Internet firewall          information about the employee's family.
logs provided information to support an           The subject then used the Agency's
allegation that the subject was engaged           Internet access to obtain the telephone
in an outside business using the                  numbers of the employee's family
Agency's Internet access and the                  members. When interviewed, the
Government computer at his desk.                  subject admitted engaging in this
Using forensic software, we                       misconduct. After we issued an
substantiated the allegation. When                investigative report, the subject received
interviewed, the subject admitted that he         a 30-day suspension. (OIG-I-373)
engaged in this misconduct by managing
six Web based businesses during official          •   False Claim. OIG initiated this case
time and by using Agency resources.               following a referral by Agency
The subject also stated that he engaged           management of an allegation that an
in this misconduct for about 18 months.           employee had an improper relationship
The employee resigned after being                 with a contractor's employee that
interviewed by the OIG.                           resulted in a conflict of interest.
(OIG-I-378)                                       Although our investigation did not
                                                  substantiate the allegation, we reviewed
•   Authorized Access of Information              travel claims submitted by the
and Harassment. OIG initiated this                contractor's employee and substantiated
case after Agency management referred             that he submitted $283 in false claims
a matter regarding an allegation that             for travel related expenses. The
subject was making harassing telephone            contractor's employee refused to
calls to the family members of a fellow           cooperate with our investigation.


NLRB OIG Semiannual Report                   11               April 1 – September 30, 2005
                                                               INVESTIGATIONS PROGRAM

Following the issuance of                        officials. Our investigation disclosed
our investigative report, the contract           that the subject sent 21 such messages
employee resigned his position with the          between April and May 2005. When
contractor and the contractor withdrew           interviewed, the subject admitted
the employee's travel claims. The                sending the messages and that a person
Department of Justice (DOJ) declined             could find that the messages were
prosecution. (OIG-I-366)                         political in nature. Following the
                                                 issuance of our report, the subject was
•   False Statement. OIG initiated this          orally counseled.
case after receiving a Hotline complaint         (OIG-I-374)
that an office allowed two employees to
engage in the work-at-home program               •   Travel Benefits. OIG initiated this
while each cared for an infant child.            case after an audit disclosed that the
Although we did not substantiate the             Agency was providing travel renewal
allegation, we did find that one of the          benefits to two employees that were
employees provided false information to          transferred to offices outside the
the OIG regarding leave usage during             continental United States (CONUS).
the relevant period of time. Following           We found that the employees are not on
the issuance of our investigation report,        renewable tours, but rather were
that employee received a written                 permanently reassigned to their duty
reprimand for the false statement. DOJ           stations. We provided a memorandum
declined prosecution. (OIG-I-371)                to the Agency expressing our belief that
                                                 tour-renewal travel was not intended or
•   Improper Use of Government                   authorized for these employees and that
E-Mail. OIG initiated this case after            the Comptroller General stated that
receiving a Hotline complaint alleging           ordinarily tour-renewal agreement travel
that an employee used the Agency e-              is to be performed between tours of duty
mail system to send messages of a                outside of CONUS. Agency managers
political nature to District of Columbia


NLRB OIG Semiannual Report                  12               April 1 – September 30, 2005
                                                                  INVESTIGATIONS PROGRAM

are currently considering the issues                abuse are encouraged to contact OIG. A
raised in our memorandum. (OIG-I-370)               log of calls to a nationwide toll free
                                                    number or the office numbers and a log
•   Authorization to Practice Law.                  of mail, e-mail, and facsimile messages
OIG initiated this investigation after a            are maintained. All information
proactive review of the certifications to           received, regardless of the method used,
practice law that are completed by the              is referred to as HOTLINE contacts.
Agency's attorneys. Our investigative
efforts disclosed that the subject failed to        The information received over the
re-register and pay the appropriate fees            hotline is the basis for the initial review
to maintain her status to practice law.             for potential investigations. The
When interviewed, the subject explained             information is analyzed to determine if
that the failure to pay the registration fee        further inquiry is warranted. Most
on time was an oversight. During the                HOTLINE contacts are calls from
investigation, the subject paid the                 members of the public seeking help on
appropriate fees. Because the subject               an employment related problem or issues
completed the re-registration process               outside OIG and/or Agency jurisdiction.
and was not suspended from the practice             As appropriate, OIG refers these callers
of law, we determined that no further               to the Regional Office; local, state, or
investigative efforts were necessary and            Federal agency; or private resource to
that the OIG would not issue an                     provide assistance.
investigative report. (OIG-I-379)
                                                    During this reporting period, OIG
Hotline                                             received 83 hotline contacts, of which 32
Employees and members of the public                 were telephone calls and 51 were in
with information on fraud, waste, and               writing. Two contacts resulted in OIG
                                                    investigative cases.




NLRB OIG Semiannual Report                     13               April 1 – September 30, 2005
                 LEGISLATION, REGULATIONS, AND POLICY
The Inspector General is to review existing and proposed legislation and regulations
relating to programs and operations of the Agency and is to make recommendations
concerning the impact of such legislation or regulations. Similarly, we review Agency
and OIG policy. We reviewed five pieces of legislation and provided one comment.

Legislation                                     claim, suit, or other action entered into
We reviewed the following legislation           with DOJ that relates to an alleged major
and provided input when appropriate.            fraud or false claim against the United
                                                States or results in a claim of damages in
H.R. 2489, Improving Government                 excess of $100,000.
Accountability Act. This legislation
amends the IG Act to establish a 7-year         H.R. 3403. This legislation would
term of office for a person appointed as        amend the NLRA to provide for inflation
an Inspector General with provisions for        adjustments to the mandatory
removal for cause, provides for law             jurisdiction thresholds of the NLRB.
enforcement authority at certain
designated Federal entities, formally           H.R. 1696, Employee Free Choice Act.
establishes an Integrity Committee for          This legislation would amend the NLRA
the review of allegations of misconduct         to require the NLRB to certify a
involving an Inspector General and              bargaining representative without
certain OIG staff, and considers each           directing an election if a majority of the
OIG to be a separate Federal agency             bargaining unit employees have
with the authority to transmit an               authorized designation of a
appropriation estimate to OMB and               representative and there is no other
appropriate Congressional committees.           individual or labor organization
                                                currently certified or recognized. It also
S. 636. This legislation amends the IG          sets forth procedural requirements for
Act to require the Inspector General of         the initial collective-bargaining
the DOJ to prepare semiannual reports           agreement and revises enforcement
on settlement or compromise of any


NLRB OIG Semiannual Report                 14               April 1 – September 30, 2005
                                                 LEGISLATION, REGULATIONS, AND POLICY

requirements for unfair labor practices           comments concerning the conflict of
during union organizing drives.                   interest statutes. We stated that the
                                                  underlying ethical concerns reflected in
S. 1173, Secret Ballot Protection Act             the statutes remain relevant to the
of 2005. This legislation would amend             function of the Government. We noted
the NLRA to make it an unfair labor               that certain conflict of interest statutes
practice for: (1) an employer to                  could be reviewed to ensure adequate
recognize or bargain collectively with a          coverage for employees of contractors as
labor organization that has not been              well as expanded to address many types
selected by a majority of the employees           of personal relationships in today's
in a secret ballot election conducted by          society that can affect a person's
the NLRB; and (2) a labor organization            impartiality.
to cause or attempt to cause an employer
to recognize or bargain collectively with         Regulations
a representative that has not been                The Counsel to the Inspector General is
selected in such a manner.                        an advisory member of the Agency's
                                                  Rules Revision Committee that develops
Legislative Policy                                changes to Agency procedural
We responded to the U.S. Office of                regulations. During this reporting
Government Ethics' request for                    period, the committee reviewed
                                                  proposed debt collection regulations.




NLRB OIG Semiannual Report                  15                April 1 – September 30, 2005
                                                        LIAISON ACTIVITIES

The Inspector General is to recommend policies for, and is to conduct, supervise, or
coordinate relationships between the Agency and other Federal agencies, state and local
governmental agencies, and non-governmental entities. The Inspector General is to give
particular regard to the activities of the Comptroller General of the United States.
Similarly, we encourage OIG staff members to participate in Agency programs and
activities. OIG staff are active in the inspector general community and Agency functions.

Inspector General Community                       The Counsel participated in the Council
•   The Inspector General is a member             of Counsels to Inspectors General. The
of the Executive Council on Integrity             Counsel and an auditor are members of a
and Efficiency (ECIE), which consists             PCIE/ECIE committee reviewing issues
primarily of the inspectors general at the        associated with e-government initiatives.
designated Federal entities in the IG Act.
She participated in activities sponsored          Two auditors and the Counsel were
by the President's Council on Integrity           selected to receive an ECIE Award for
and Efficiency (PCIE), which consists             Excellence.
primarily of the Presidentially-appointed
inspectors general. She joined the Audit          Government Accountability Office
Committee in May 2001.                            The IG Act states that each inspector
                                                  general shall give particular regard to the
The Assistant Inspector General for               activities of the Comptroller General of
Audits, or designated auditors,                   the United States, as head of the
participated in the Federal Audit                 Government Accountability Office, with
Executives Council (FAEC), Financial              a view toward avoiding duplication and
Statement Audit Network, Statement of             ensuring effective coordination and
Work Subgroup, Results Act Group,                 cooperation. No reviews of NLRB are
IDEA Users Group, and the FAEC                    currently ongoing.
Information Technology Security
Committee.



NLRB OIG Semiannual Report                   16               April 1 – September 30, 2005
                           INFORMATION REQUIRED BY THE ACT

Certain information and statistics based on the activities accomplished during this period
are required by section 5(a) of the IG Act to be included in the semiannual reports. These
are set forth below:

Section 5(a)

(1), (2), (7)   OIG did not identify significant problems, abuses or deficiencies relating to the
                administration of programs. For the purpose of this section, we used the
                definition of significant as set forth in the Federal Managers' Financial Integrity
                Act.

(3)             Corrective action has not been completed on all significant recommendations
                that were described in the previous semiannual reports.

(4)             Two cases were referred to prosecutorial authorities. There were no
                prosecutions or convictions.

(5)             No reports were made to the Chairman that information or assistance requested
                by the Inspector General was unreasonably refused or not provided.

(6)             A listing by subject matter is located on page 18.

(8), (9)        No audit reports issued during this period had a recommendation on questioned
                costs. No audit reports issued during this period identified funds that could be
                put to better use. See Tables 1 and 2.

(10)            There are no audit reports issued before the commencement of the reporting
                period for which no management decision has been made by the end of the
                reporting period.

(11)            No significant revised management decisions were made during the reporting
                period.

(12)            There were no significant management decisions with which I am in
                disagreement.




NLRB OIG Semiannual Report                      17                   April 1 – September 30, 2005
                           AUDIT REPORTS BY SUBJECT MATTER

                                                                             Funds To
                                     Questioned   Unsupported   Ineligible   Be Put To
Report Title and Number               Costs          Costs        Costs      Better Use

ADMINISTRATION

Non-Standard Work Hours
Compensation,
OIG-AMR-47-05-04                         0             0            0            0

Safeguarding Social Security
Numbers, OIG-AMR-48-05-05                0             0            0            0


NLRB Technology Initiatives as
Related to the Rehabilitation Act,       0             0            0            0
OIG-AMR-49-05-06




NLRB OIG Semiannual Report                   18            April 1 – September 30, 2005
Table 1                         REPORTS WITH QUESTIONED COSTS

                                                           Dollar Value
                                      Number of    Questioned      Unsupported
                                       Reports       Costs            Costs
A. For which no management
   decision has been made by the
   commencement of the period             0            0               0

B. Which were issued during the
   reporting period                       0            0               0

       Subtotals (A+B)                    0            0               0


C. For which a management
   decision was made during the
   reporting period                       0            0               0

(i)      Dollar value of disallowed
         costs                            0            0               0

(ii)     Dollar value of costs not
         disallowed                       0            0               0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                 0            0               0

       Reports for which no
       management decision was
       made within six months of
       issuance                           0            0               0




NLRB OIG Semiannual Report                    19       April 1 – September 30, 2005
                             REPORTS WITH RECOMMENDATIONS
Table 2                      THAT FUNDS BE PUT TO BETTER USE


                                     Number of    Funds Be Put
                                      Reports     To Better Use
A. For which no management
   decision has been made by the
   commencement of the period            0             0

B. Which were issued during the
   reporting period                      0             0

       Subtotals (A+B)                   0             0


C. For which a management
   decision was made during the
   reporting period                      0             0

(i)      Dollar value of
         recommendations that were
         agreed to by management         0             0

(ii)     Dollar value of
         recommendations that were
         not agreed to by
         management                      0             0

D. For which no management
   decision has been made by
   the end of the reporting
   period                                0             0

       Reports for which no
       management decision was
       made within six months of
       issuance                          0             0




NLRB OIG Semiannual Report                   20         April 1 – September 30, 2005
Every employee is the
guardian of integrity                                    .




                      OIG Hotline
                     1 800 736-2983
                  oighotline@nlrb.gov
                           or
                 1099 14th Street, NW
                 Washington, DC 20570


NLRB OIG Semiannual Report   21   April 1 – September 30, 2005
